           INSPECTOR GENERAL, DOD, OVERSIGHT
               OF THE AUDIT OF THE FY 2000
               MILITARY RETIREMENT FUND
                 FINANCIAL STATEMENTS


Report No. D-2001-068               February 28, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
DFAS                  Defense Finance and Accounting Service
OMB                   Office of Management and Budget
                        Office of the Inspector General, DoD
Report No. D-2001-068                                                  February 28, 2001
   (Project No. D2000FH-0233.000)

          Inspector General, DoD, Oversight of the Audit of the
         FY 2000 Military Retirement Fund Financial Statements

                                    Executive Summary

Introduction. Public Law 101-576, the “Chief Financial Officers Act of 1990,”
November 15, 1990, as amended by Public Law 103-356, the “Federal Financial
Management Act of 1994,” October 13, 1994, requires DoD to prepare annual audited
Military Retirement Fund Financial Statements. Office of Management and Budget
(OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial Statements,”
October 16, 2000, establishes the minimum requirements for audits of these financial
statements. This Bulletin requires the Inspector General, DoD, or an independent
auditor, to express an opinion on the DoD financial statements and to report on the
adequacy of internal controls and compliance with laws and regulations. We contracted
the audit of the FY 2000 Military Retirement Fund Financial Statements to
Deloitte & Touche LLP, an independent certified public accounting firm. This report
discusses the work we performed on the oversight of the audit of the FY 2000 Military
Retirement Fund Financial Statements.

Objective. Our objectives were to oversee the Deloitte & Touche LLP audit of the
FY 2000 Military Retirement Fund Financial Statements and to determine the reliability
and effectiveness of processes and procedures used to prepare those statements. See
Appendix A for a discussion of the audit process.

Unqualified Opinion. Deloitte & Touche LLP expressed an unqualified opinion on the
FY 2000 Military Retirement Fund Financial Statements. We concur with the
Deloitte & Touche LLP unqualified opinion; our endorsement of that unqualified
opinion is Exhibit 1. The Deloitte & Touche LLP “Independent Auditors’ Report” is
Exhibit 2.

Internal Controls. Deloitte & Touche LLP considered the Military Retirement Fund
internal controls when determining the audit procedures for the purpose of expressing
an opinion on the financial statements. The Deloitte & Touche LLP report,
“Independent Auditors’ Report on Internal Control Over Financial Reporting and
Compliance Based Upon the Audit Performed in Accordance With Government
Auditing Standards,” is Exhibit 3.

Deloitte & Touche LLP did not detect any material internal control weaknesses during
the audit that would be considered a reportable condition. A reportable condition
would be a significant deficiency in the design or operation of the internal controls that
would cause a material misstatement in the financial data. However, Deloitte &
Touche LLP did identify the non-material conditions described in the following
paragraph.

The general electronic data processing controls at the computer processing locations
used by the Military Retirement Fund do not provide reasonable assurance that logical
security tools and techniques have been implemented, configured, and administered to
restrict access to programs, data, and other information resources. Control weaknesses
included deficiencies in the design and operation of electronic data processing access
controls, security policies and procedures, and program change controls that could
adversely affect the Military Retirement Fund’s ability to record, process, and
summarize its financial information in accordance with all appropriate requirements.
This report does not include details because disclosure of detailed information about
security weaknesses may further compromise controls. Details will be presented in a
separate management letter with limited distribution in accordance with Government
Auditing Standards.

Compliance With Laws and Regulations. Deloitte & Touche LLP reviewed the
Military Retirement Fund for compliance with laws and regulations in order to obtain
reasonable assurance about whether the financial statements were free of material
misstatements. The Deloitte & Touche LLP review was in accordance with
Government Auditing Standards, OMB Bulletin No. 01-02, and OMB Circular No.
A-127, “Financial Management Systems,” as revised July 23, 1993. The Circular
requires that Federal financial systems provide complete, reliable, consistent, and
useful information on a timely basis. Deloitte & Touche LLP identified instances of
noncompliance that are described below.

     • The electronic data processing systems utilized by the Military Retirement
       Fund are not fully compliant with OMB Circular A-127. Deloitte & Touche
       LLP identified design and operation deficiencies that could compromise the
       ability to provide reliable data.

     • Although the general ledger system used by the Military Retirement Fund is
       compliant with the U.S. Government Standard General Ledger, it is not
       transaction-based or derived from an integrated financial system. Additionally,
       the general ledger has two feeder systems that are not fully compliant with the
       U.S. Government Standard General Ledger.




                                          ii
Table of Contents

Executive Summary                                                         i

Appendixes
     A. Audit Process
          Background                                                      1
          Scope and Methodology                                           2
          Prior Coverage                                                  3
     B. Report Distribution                                               4

Exhibits
     Exhibit 1. Inspector General, DoD, Endorsement Memorandum
     Exhibit 2. Deloitte & Touche LLP Opinion Report, “Independent
                Auditors’ Report”
     Exhibit 3. Deloitte & Touche LLP Report, “Independent Auditors’
                Report on Internal Control Over Financial Reporting and
                Compliance Based Upon the Audit Performed in Accordance
                With Government Auditing Standards”
Appendix A. Audit Process

Background
    Introduction. Legislation requires financial statement audits by the Inspectors
    General and prescribes the responsibility of management and the auditors for the
    financial statements, internal controls, and compliance with laws and
    regulations. Management is responsible for establishing and maintaining an
    internal control structure and for complying with laws and regulations applicable
    to DoD financial accounting and reporting. Our responsibility is to render an
    opinion on the financial statements, and to determine whether internal controls
    are adequate and whether the entity complied with laws and regulations.

    Accounting Principles. The Military Retirement Fund (the Fund) Financial
    Statements were to be prepared in accordance with OMB Bulletin No. 97-01,
    “Form and Content of Agency Financial Statements,” October 16, 1996, as
    amended November 29, 1998. Footnote 1 of the Fund Financial Statements,
    discusses the significant accounting policies used in preparing the financial
    statements.

    Federal Accounting Standards Advisory Board Standards. The Federal
    Accounting Standards Advisory Board was established by OMB, the U.S.
    Department of the Treasury, and the General Accounting Office. On
    October 19, 1999, the American Institute of Certified Public Accountants
    recognized the Federal Accounting Standards Advisory Board as the body to
    establish generally accepted accounting principles for Federal government
    entities. Therefore, Statements of Federal Financial Accounting Standards
    issued by the Federal Accounting Standards Advisory Board are recognized as
    generally accepted accounting principles for applicable Federal government
    entities.

    Fund Administration. In April 1995, the Defense Finance and Accounting
    Service (DFAS) consolidated the military retiree and annuity pay systems and
    operations into the Defense Retiree and Annuitant Pay System at DFAS
    Cleveland, Cleveland, Ohio, and DFAS Denver, Denver, Colorado. DFAS
    Cleveland establishes and maintains retiree accounts, and DFAS Denver
    establishes and maintains survivor annuitant accounts. The Defense Retiree and
    Annuitant Pay System is the standard DoD system that gathers, stores, and
    processes data required to generate and account for payroll for all DoD military
    retirees, former spouses of these retirees, and survivor benefit plan annuitants.
    The DoD Office of the Actuary determines the funding requirements for the
    Military Retirement Fund. Based on those requirements, the Investment Trust
    Fund Directorate, Accounting Deputate, DFAS, monitors the contributions that
    the Military Departments and the U.S. Treasury make to the Fund and invests
    those contributions in market-based U.S. securities.



                                        1
Scope and Methodology
    Audit Work Performed. To fulfill our responsibilities under Public
    Law 101-576, the “Chief Financial Officers Act of 1990,” as amended by
    Public Law 103-356, the “Federal Financial Management Act of 1994,” and
    OMB Bulletin No. 01-02, “Audit Requirements for Federal Financial
    Statements,” dated October 16, 2000, we performed oversight of the
    independent audit conducted by Deloitte & Touche LLP of the Fund Financial
    Statements. We reviewed the Deloitte & Touche LLP audit approach and
    monitored audit progress at key points.

    Reviewing the Deloitte & Touche LLP Audit Approach. We used the
    “Financial Audit Manual,” December 12, 1997, issued by the General
    Accounting Office, as the criteria for reviewing the Deloitte & Touche LLP
    audit approach. Specifically, we reviewed the audit plans, programs, and
    working papers, supported Deloitte & Touche LLP audit efforts, and
    participated in conferences held during the audit.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (01-DoD-2)

           FY 2001 Subordinate Performance Goal 2.5: Improve DoD financial
           and information management. (01-DoD-2.5).

           FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
           on financial statements. (01-DoD-2.5.2).

    DoD Functional Area Reform Objectives and Goals. Most major DoD
    functional areas have also established performance improvement reform
    objectives and goals. This report pertains to achievement of the following
    functional area objective and goal.

           Financial Management Area. Objective: Strengthen internal controls.
           Goal: Improve compliance with the Federal Managers’ Financial
           Integrity Act of 1982. (FM-5.3).

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.

                                        2
    Audit Type, Period, and Standards. We performed this financial statement
    audit from June 26, 2000, through February 7, 2001, in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. We did not use
    computer-processed data to conduct our oversight of the Deloitte & Touche LLP
    audit of the Fund Financial Statements.

    Contacts During the Audit. We visited or contacted individuals and
    organizations in the DoD audit community. Further details are available on
    request.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil.




                                       3
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense (Personnel and Readiness)
  Deputy Under Secretary of Defense (Program Integration)
      Director, Defense Manpower Data Center
      Chief Actuary, DoD Office of the Actuary

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
Deloitte and Touche LLP




                                          4
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  International Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                          5
Exhibit 1. Inspector General, DoD,
           Endorsement Memorandum
Exhibit 2. Deloitte & Touche LLP Opinion
           Report, “Independent Auditors’
           Report”
Exhibit 3. Deloitte & Touche LLP Report,
           “Independent Auditors’ Report on
           Internal Control Over Financial
           Reporting and Compliance Based
           Upon the Audit Performed in
           Accordance With Government
           Auditing Standards”
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

F. Jay Lane
Salvatore D. Guli
David F. Vincent
Thomas J. Winter
Lisa Y. Johnson
Fred R. McComas
Alberto T. Rodriguez
